 Office of Inspector General

     Audit Report

GROWTH OF DOMESTIC AIRLINE CODE
  SHARING WARRANTS INCREASED
           ATTENTION
       Office of the Secretary and the
      Federal Aviation Administration

       Report Number: AV-2013-045
      Date Issued: February 14, 2013
           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Growth of Domestic Airline Code                                              Date:     February 14, 2013
           Sharing Warrants Increased Attention
           Office of the Secretary of Transportation
           Federal Aviation Administration
           Report Number AV-2013-045

  From:    Jeffrey B. Guzzetti                                                               Reply to
                                                                                             Attn. of:    JA-10
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    General Counsel
           Assistant Secretary for Aviation and
            International Affairs
           Federal Aviation Administrator

           Over the past decade, the aviation industry has experienced significant growth in
           the regional airline sector. The number of passengers traveling on regional aircraft
           ticketed by mainline carriers 1 grew 115 percent from 2000 to 2010. 2 To gain
           market share and reduce costs, mainline carriers have increasingly moved to joint
           marketing arrangements, often called “code share agreements.” In these
           agreements, mainline carriers purchase seat capacity from an independent regional
           airline or contract for the services of a regional airline to fly passengers to their
           larger hub airports. Today, regional airlines account for over half of all scheduled
           commercial passenger flights, operating more than 13,000 flights daily and
           carrying approximately 160 million passengers annually.

           The 2009 accident of a Continental Connection flight, operated by Colgan Air,
           raised concerns regarding the role a mainline carrier plays in advancing the safety
           of its regional partner and the processes used to disclose a code share carrier to
           passengers. In response to this accident, on June 15, 2009, the Secretary of

           1
               For purposes of this report, a mainline carrier is a passenger air carrier with annual operating revenues greater than
               $1 billion that is also the predominant marketing carrier in a code share relationship with a smaller domestic regional
               airline.
           2
               Percentage derived from OIG analysis of approximately 118 million legs of travel in 2000 and 2010 as reported in
               BTS’s Origin and Destination Survey (DB1B) database, which represents a 10 percent sample of 35-39 large
               certificated carriers, depending on the quarter.
                                                                                    2


Transportation and the Federal Aviation Administration (FAA) Administrator
initiated a Call to Action on Airline Safety and Pilot Training for FAA, air carriers,
and labor organizations to jointly identify and implement safety improvements to
ensure a common level of safety between domestic code sharing partners.

The ranking members of the House Committee on Transportation and
Infrastructure and the Subcommittee on Aviation requested that we review
regulatory oversight of domestic code sharing. Accordingly, our audit objectives
were to (1) examine the Department of Transportation’s (DOT) and FAA’s roles
in reviewing agreements between mainline air carriers and their regional partners,
(2) assess FAA policies and procedures to ensure an equivalent level of safety
between mainline carriers and their regional partners, and (3) determine whether
passengers have adequate information to make informed decisions when
purchasing an airline ticket. Although there are other types of code share
arrangements, the sole focus of this audit is on code share relationships between
major U.S. air carriers and their domestic regional partners. During our audit, we
reviewed four major and eight regional carriers who participate in code share
agreements.

We conducted this review in accordance with generally accepted Government
auditing standards. Exhibit A details our scope and methodology.

RESULTS IN BRIEF
DOT’s Office of the Secretary (OST) and FAA do not review most domestic code
share agreements. OST is required to assess potential economic impacts on
competition for domestic code share agreements between two major carriers.
However, because just 20 percent of active Part 121 carriers are considered
“major,” the number of agreements that OST is required to review is limited. OST
is not required to maintain a list of domestic agreements that it has reviewed and
does not track the number of active domestic code share agreements. FAA, as
safety regulator, is not required to review any domestic code share agreements and
does not voluntarily do so. FAA considers domestic code share agreements to be
purely financial arrangements and relies on its oversight of individual carriers to
ensure the safe operation of passenger flights. As a result, most domestic code
share agreements go into effect without being reviewed by any DOT regulatory
entity.

FAA does not have procedures to advance the Agency’s commitment to ensure the
same level of safety between mainline air carriers and their code share partners. As
part of the Call to Action, FAA officials stated that mainline air carriers should
find specific ways to ensure that their partner carriers implement the most
effective safety practices. While FAA sponsors biannual information sharing
                                                                                     3


events across the industry, it has not taken steps to encourage mainline carriers to
consistently share safety information and best practices with their code share
partners. As a result, some safety programs developed internally between code
sharing partners are more robust than others. For example, one major carrier meets
with its code share partners on a monthly basis to discuss safety
initiatives/practices but some of the major carriers we reviewed do not meet as
frequently with their code share partners. Further, because FAA does not review
domestic code share arrangements, the Agency has not assessed whether certain
aspects of these agreements, such as financial incentives based on performance,
could have unintended safety consequences.

Passengers have sufficient pricing and scheduling information to make ticketing
decisions, but some confusion still exists about which airline is operating their
flight because carriers, travel agencies, and advertisers all disclose this information
differently. For example, online ticket sellers have considerable latitude in the
manner in which they disclose code share information. While some Web sites
display the operating carrier prominently on the itinerary, others name the
operating carrier in small footnotes at the end of the itinerary, causing the
consumer to have to search for the information. Conversely, while travel agents
are required to follow specific rules for verbally disclosing code share operators,
14 of 16 randomly selected travel agents we surveyed were not following these
rules. However, according to OST, travel agents are not prioritized for oversight
because there are too many of them and the percentage of passengers traveling
with tickets purchased from travel agents is relatively low. Passengers also do not
have access to reliable information on airline customer service and complaint
records. OST provides some of this information, but it is inconsistently presented
and does not include all carriers in accordance with OST guidelines. For example,
airline complaint records may group regional code share operator data with the
mainline code share partner data under a business name, such as United Express,
so consumers are not able to distinguish which operator actually received the
complaint.

We are making recommendations to enhance OST and FAA monitoring of
domestic code share relationships and to increase consumer awareness of code
sharing.

BACKGROUND
Most mainline air carriers and their regional counterparts create joint marketing
agreements, often referred to as code share agreements, whereby the airlines
coordinate their flight schedules to facilitate the interchange of passengers. Under
these agreements, the mainline carrier often allows the regional airline to (1) use
the mainline carrier’s flight designator code to identify flights and fares in
                                                                                                               4


computer reservation systems, (2) use the mainline carrier’s logos and uniforms,
and (3) participate in joint promotion and advertising activities.

Code sharing provides benefits to passengers, regional carriers, and mainline
carriers. Passengers can benefit from lower fares and more seamless travel. For
example, code sharing focuses the passenger on the marketing carrier to resolve
issues throughout the passenger’s flight experience, giving them “one stop” for
complaints, concerns, or issues. Regional carriers benefit from the connection to
the mainline carrier, since the mainline carrier sells the tickets, schedules the
aircraft, and often provides ground and fuel services. Mainline carriers benefit by
gaining access to additional and smaller aircraft for bringing passengers to hub
airports with no ownership stake.

Major passenger air carriers have increased the number of their advertised flights
operated by regional airlines under code-sharing agreements in an effort to cut
costs and gather feeder traffic from smaller cities. For example, in 2011, the
percentage of the advertised flights of American, Delta, United, and US Airways
operated by code-share regional air carriers was 61 percent, up from 40 percent in
2000. 3

Ticket sellers are required to disclose the operator of a flight during itinerary
searches but the name of the operating carrier is often minimized because regional
carriers use the marketing and branding of their mainline partners. For example,
some regional carriers have code share agreements with multiple mainline carriers,
and use different “doing business as” names when operating for their major carrier
partners on different domestic routes (see figure 1).




3
    Southwest Airlines and its merger partner AirTran were excluded from this analysis since neither airline uses
    domestic code sharing in their operations.
                                                                                           5


          Figure 1. Different Business Names of One Code Sharing Airline




         Source: Airline Web sites, March 2012


NEITHER OST NOR FAA ARE REQUIRED BY LAW TO REVIEW
ALL DOMESTIC CODE SHARE AGREEMENTS
OST and FAA are not required to review all domestic code share agreements,
despite the increased prevalence of these agreements in the marketplace. While the
number of domestic code share partnerships has increased in recent years—up
16 percent in the past year alone 4—current law requires that OST review only a
small portion of domestic code share agreements and does not require FAA to
review any of them for potential safety impacts. As a result, most domestic code
share agreements go into effect without being reviewed by any DOT regulatory
entity.

Most Domestic Code Share Agreements Are Not Reviewed for Their
Potential Economic Impact, and None Are Reviewed for Their Safety
Impact
OST, under its responsibility to review certain domestic code share agreements for
unfair competition, is only required to review those agreements between two
major carriers based upon their operating revenue and percentage of market

4
    U.S. General Services Administration Code Share Fact Sheets for FY 2011 and FY 2012.
                                                                                                                   6


capacity. 5 A “major” carrier is one defined by the Bureau of Transportation
Statistics as having at least $1 billion in annual operating revenue. However, only
20 percent of active Part 121 certificate holders are considered “major.” As a
result, the number of agreements between mainline and regional carriers that OST
is required to review is limited. According to our analysis, 6 in 2012, OST would
only have been required to review about 22 percent of active domestic code share
agreements, as shown in figure 2 below.

      Figure 2. OST-Required Review of Domestic Code Share Agreements




              Source: OIG analysis of domestic carrier code share agreements
            * Indicates OST review required if the agreement affects more than 15% of
               available seat miles

OST does not voluntarily review other agreements because it believes that
agreements between major carriers are the only ones with the potential to
adversely impact the market. Consequently, most domestic code share agreements
are not reviewed by OST. However, the addition or cancellation of code share
agreements between major carriers and non-major carriers may affect competition
and consumer access in smaller markets (e.g., subsequent to its merger with
Northwest, Delta announced that it was suspending its Delta Connection service to
24 smaller markets as the carrier seeks to adjust service to these markets). By
reviewing only the domestic agreements between the largest carriers, OST may be
missing competitive and economic impacts on those smaller markets.

FAA, in its role as aviation safety regulator, is not required to review any domestic
code share agreements for their potential safety impacts even though they may

5
    Under 49 U.S.C. § 41720, OST must review any agreement “between two or more major air carriers that affects
    more than 15 percent of the total number of available seat miles offered by the major air carriers.”
6
    Because OST does not maintain any records or lists of domestic code share agreements and does not approve all
    domestic agreements, the percentage cited is based on an OIG analysis of the number of active domestic code share
    relationships between "major carriers" (as defined by Bureau of Transportation Statistics) compared to ALL active
    domestic code share relationships.
                                                                                                        7


request code share agreements from air carriers. In its 2009 Call to Action on
Aviation Safety and Pilot Training, FAA committed to work with DOT “to
develop the authority to review agreements between air carriers and their regional
partners.” Despite this commitment, FAA did not pursue this effort because it
believed that the largest passenger airlines had already taken steps to increase
communication, data sharing, and cooperation with their partner airlines. As a
result, domestic code share agreements go into effect without consideration of
their possible impact on air carrier safety.

OST Does Not Have Sufficient Information Regarding the Current
State of Domestic Code Sharing
OST does not (1) have a documented process for reviewing domestic code share
agreements, (2) keep records of which agreements it has reviewed, or (3) maintain
a list of active domestic agreements. As such, OST does not know how many
domestic code share agreements exist at any given time. This is despite the fact
that as code share partnerships have evolved, the current code share landscape has
become extraordinarily complex, as shown in figure 3.

Figure 3. Domestic Airline Code Share Agreements as of December 2012




      Source: OIG analysis of FAA, RAA, and air carrier data
      * Dashed lines indicate subsidiary relationships. A subsidiary corporation or company is one in
      which another, generally larger, corporation, known as the parent corporation, owns all or at least
      a majority of the shares. As the owner of the subsidiary, the parent corporation may control the
      activities of the subsidiary.
                                                                                 8


OST’s limited review of this complex domestic code share environment coupled
with its lack of recordkeeping for the domestic agreements it does review leaves a
gap in DOT awareness of the code sharing economic landscape. This puts the
Department and FAA at a disadvantage as they attempt to understand carrier
relationships and partnership responsibilities.

FAA LACKS PROCEDURES TO ADVANCE AN EQUIVALENT
LEVEL OF SAFETY BETWEEN MAINLINE CARRIERS AND THEIR
REGIONAL PARTNERS
FAA does not take an active role in reviewing domestic code share agreements for
possible safety impacts. Even though the 2009 Colgan accident revealed different
operating standards between that regional operator and its mainline partner, FAA
has not developed policies to ensure that code share partners advance a common
level of safety.

FAA Has Not Taken Steps To Encourage Implementation of Safety-
Sharing Programs Between Code Share Partners
FAA has not provided guidance to the industry on how best to implement safety
information-sharing programs or outlined its expectations for sharing best
practices within code share partnerships. Due to differences in airline safety
practices, safety information sharing between code share partners is imperative.
For example, NTSB determined that the Crew Resource Management training
provided to the pilots of Colgan Air Flight 3407 was not as robust as their code
share partner’s (Continental Airlines) training. Following the accident, Colgan
officials expanded their Crew Resource Management training to include some of
the components of Continental’s program.

FAA officials stated in the 2009 Call to Action that major air carriers should seek
specific and concrete ways to ensure that their code share partners adopt and
implement the larger company’s most effective practices for safety. We found that
mainline carriers have begun implementing safety information sharing practices—
five mainline carriers we reviewed have established code share safety programs
with their regional partners. Yet, we found differences in the amount, type, and
frequency of information being shared between carrier partnerships. For example,
one mainline air carrier we reviewed tracks and reviews airline safety metrics and
then shares this information with its regional partners on a monthly basis.
However, not all mainline carriers review, track, and/or trend such metrics.
                                                                                                          9


FAA Does Not Assess the Effects of Code Share Agreements on
Safety
FAA does not review performance metrics contained in code share agreements to
ensure they do not have an adverse impact on safety. This is because FAA
officials believe oversight of each individual air carrier will ensure the safety of
the airline industry. However, most code share agreements contain compensation
models or performance stipulations that can directly affect the regional carriers’
operations. For example, the agreements we reviewed state that regional partners
(1) will only be compensated if they achieve certain baseline performance
requirements (such as achieving a 95 percent completion rate 7 for 3 months of any
consecutive 6 month period), (2) may be penalized financially for failing to
achieve the performance requirements, and/or (3) can receive incentives for
exceeding established goals.

In the 13 domestic code share agreements we obtained as part of our air carrier
reviews, almost all (92 percent) contained financial incentives for on-time
performance. Some also contained penalties for failing to meet metrics or
incentives for high completion rates as shown below.

Figure 4. Percentage of Code Share Agreements With Incentives/Penalties




     Source: OIG analysis of 13 major to regional carrier agreements

While we recognize that performance metrics can be an important aspect of a
successful business relationship, there may be potential safety implications with

7
    Completion rate is the ratio of scheduled flights to flights that actually reach their destination.
                                                                                              10


meeting those metrics. This concern was highlighted during the Call to Action
Safety Forums in the summer of 2009, in which participants stated that economic
issues at air carriers can influence safety program decisions. However, since FAA
does not review any domestic code share agreements, the Agency does not know
whether the incentives or penalties included within these agreements could result
in unintended safety vulnerabilities or whether this information could be beneficial
in its air carrier oversight.

SOME AIR CARRIER OPERATING INFORMATION IS NOT
READILY ACCESSIBLE TO PASSENGERS
While passengers have sufficient pricing and scheduling information when
purchasing an airline ticket, they may not obtain a clear understanding of which
airline is responsible for the safe operation of their flight. Although current
regulations 8 require that online ticket sellers and traditional travel agents inform
passengers which carrier is operating their flight before purchasing a ticket, there
is significant variation in the way online ticket sellers comply with these
regulations. Furthermore, traditional travel agents are not evaluated for
compliance with the disclosure requirements. Additionally, consumers have access
to performance and complaint data for air carriers when making purchasing
decisions; however, these data are not reliable or complete for regional carrier
code share operations.

Compliance With Code Share Disclosure Regulations Varies Among
Online Ticket Sellers
While OST has been vigilant in enforcing regulations for online ticket sellers
(including the air carriers themselves), these entities still have considerable
latitude in how they disclose code share information, which can lead to consumer
confusion. Current law requires that online travel agencies 9 provide code share
disclosure to passengers in schedules and itineraries, but the manner in which this
information is presented sometimes obscures the code share relationship. 10 As
shown below, online ticket agent code share disclosures are different enough in
presentation that consumers may find it difficult to discern. For example:

     • Some online ticket agents display disclosures about the operating carrier
       separately from the flight number, with no symbol indicating that there is
       additional information about the flight (see figure 5). This increases the chance
       that consumers will overlook the disclosure, because there is no indication that


8
     49 U.S.C. § 41712 and 14 C.F.R. Part 257 mandate disclosure of code share information.
9
     Online Travel Agencies are Internet sites that sell tickets for air travel.
10
     14 C.F.R. § 257.5 (c) mandates the requirement for written code share disclosure.
                                                                                  11


 there is additional information for any of the flights and the disclosure is
 presented in small print at the end of the itinerary.

                 Figure 5. Example of Online Code Share Disclosure




      Source: Continental.com itinerary search conducted on May 2, 2011

• Some ticket sellers use the “doing business as” names for air carriers before the
  name of the actual operating carrier (see figure 6). This could confuse the
  consumer with the impression that the carrier is either owned or operated by
  the marketing carrier and implies that the flight is actually operated by a
  marketing carrier’s brand name.

       Figure 6. Example of “Doing Business As” Names in Online Code
                              Share Disclosures




                 Source: United.com itinerary search conducted on April 5, 2011
                                                                                                                      12


Current variation among Web sites can make it difficult for consumers to locate
and/or understand the disclosure of which carrier is operating their flight.
According to some OST officials, prescribing uniformity among Web sites could
reduce flexibility and stifle innovative approaches to presentation that are
beneficial to consumers. Additionally, some OST officials state that uniformity is
not necessary to achieve the Agency’s statutory mandate to prohibit deception.
Nevertheless, OST has proposed a rule, targeted for publication in May 2013, to
codify Web site disclosure of code share operations, but the extent of the proposed
changes is unclear until the rulemaking effort is finalized. 11

OST Does Not Proactively Assess Traditional Travel Agent
Compliance
OST does not actively survey traditional travel agents for compliance with code
share disclosure regulations, although they account for about $60 billion of total
air travel sales. Current law requires that travel agents provide disclosure of code
share travel both orally to passengers before booking transportation and in written
itineraries. 12 However, according to Department officials, OST does not prioritize
oversight of this sector of ticket sellers because there are far too many of them and
because the percentage of passengers purchasing travel through traditional travel
agents is relatively low.

Even so, our survey results show that closer oversight of travel agents may be
warranted. In our sample, 13 we found that travel agents do not consistently provide
verbal disclosure of code share flights. For example, 14 of 16 travel agents we
randomly contacted failed to disclose or properly identify the operator of code
share flights—even after being asked to identify the name of the actual operating
carrier. In most of those cases, the travel agents actually provided incorrect
information regarding which carrier was operating the flight. This would seem to
indicate that the public could benefit from enhanced OST oversight of this
segment of the ticketing industry.

OST Data for Consumers on Airline Complaints Are Inconsistent and
Incomplete
Consumers currently do not have access to complete information regarding airline
customer service and complaint records when purchasing an airline ticket. OST
provides consumers some of these data in its monthly Air Travel Consumer
Report, 14 but the data are inconsistently presented and do not include all carriers

11
     SNPRM: Enhancing Airline Passenger Protections III; RN 2105-AE11.
12
     14 C.F.R. § 257.5(b) mandates the requirement of oral code share disclosure to prospective customers.
13
     Similar to OST compliance verification, our survey was conducted via telephone with a specific itinerary containing
     a known code share flight.
14
     The Air Travel Consumer Report is a monthly product of DOT OST’s Office of Aviation Enforcement and
     Proceedings. It is designed to assist consumers with information on the quality of services provided by the airlines.
                                                                                                                     13


due to the thresholds established by OST. OST collects and reports consumer
complaints, except those that are safety or security related (which are handled by
FAA and the Transportation Security Administration, respectively). However, the
manner in which the data are presented limits the report’s utility, especially for
consumers looking for information on regional carriers (e.g., on time performance
or customer service complaints on flight crew performance, which are the
responsibility of the operating carrier). For example, the report:

     • Only includes complaints that are made directly to OST and not those made to
       the airlines; 15
     • Only lists those airlines that receive 5 or more complaints in a month or 10 or
       more complaints in a year. If the total number of complaints against an airline
       is below this threshold, the complaints are published in a category called
       “Other U.S. Airlines;”
     • Categorizes complaints based on the consumer’s perception of who the
       operating carrier is that caused the complaint; 16 and
     • Often groups regional carrier data with mainline code share partner data. As an
       example, over half of the reports issued in 2011 included complaint statistics
       for “United Express,” which is not an air carrier—United Express operates as a
       United Airlines’ code share “brand.” Therefore, complaints against “United
       Express” should be counted against the responsible partner on which the
       complaint was based. For example, if a passenger’s baggage was late or he/she
       was involuntarily bumped from a flight, most likely the fault lies with the
       mainline carrier’s gate or luggage systems or agents, and therefore should be
       attributed to the mainline carrier.

According to a recently published notice of proposed rulemaking, OST is
considering adding a requirement that smaller carriers report data for OST’s “on
time performance” reporting, but has not yet identified any changes to how
customer complaints might be published in the future. 17 As a result, the impact of
changes to consumer transparency in the Air Travel Consumer Report will not be
fully known until OST’s rulemaking effort is finalized. At the time of our review,
the Air Travel Consumer Report provided unreliable information regarding
regional carrier complaint data.




15
     Except for disability/accessibility related complaints.
16
     For example, if a consumer files a complaint against a mainline carrier for service that was actually performed by
     one of its domestic code share partners, the complaint will be recorded against the mainline carrier because that is
     how the consumer reported it to OST.
17
     SNPRM: Enhancing Airline Passenger Protections III; RIN 2105-AE11.
                                                                                14


CONCLUSION
Airline code sharing continues to play an increasingly important role in creating a
seamless travel experience for consumers, while providing benefits to both
mainline and regional carriers. However, OST and FAA oversight of domestic
code sharing has not kept pace with recent industry changes, which may indicate a
need for heightened attention of code share partnerships and guidance to domestic
code share partners to improve safety programs. In light of the growing
complexity and number of code sharing arrangements, OST and FAA need to
reconsider their processes for enhancing opportunities for code sharing carriers to
have an equivalent level of safety with their mainline partners. Furthermore,
although OST has taken some steps towards improving consumer transparency
through its proposed rulemaking, further action is needed to improve the
information that consumers use to make ticketing decisions. Without these
improvements, it will become increasingly difficult for regulators to monitor the
economic and safety impacts of code share relationships and for consumers to
easily understand which carrier is operating their flight.

RECOMMENDATIONS
To enhance management attention and improve consumer awareness of domestic
code sharing, we recommend that OST:

1.   Determine how the Department could take a more active role in reviewing
     domestic code share agreements between mainline carriers and their regional
     partners (such as developing a more formal process for identifying which
     domestic agreements to review), and develop and implement an action plan
     for doing so.

2.   Assess whether consumer complaints should be attributed to a mainline
     and/or operating carrier instead of the mainline code share “brand” in the Air
     Travel Consumer Report.

3.   Increase sampling of travel agents for code share disclosure to improve
     compliance with current OST regulations.

To further advance commitments with the Call to Action, we recommend that
FAA:

4.   Publish best practices guidance for safety-sharing practices among Part 121
     air carriers and their code share partners.
                                                                                   15


5.   Review code share agreement performance metrics, such as financial
     incentives for on-time performance, to ensure they do not have unanticipated
     or adverse impacts on safety.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided OST and FAA with our draft report on October 10, 2012, and
received their formal joint response on February 1, 2013, which is included in its
entirety as an appendix to this report. OST concurred with recommendations 2 and
3 and provided responsive planned actions and reasonable implementation
timeframes. OST partially concurred with recommendation 1, and while its
response generally meets the intent of our recommendation, we are requesting
additional clarifying information on its planned actions, as detailed below. FAA
partially concurred with recommendations 4 and 5, and its proposed actions for
recommendation 4 satisfy the intent of our recommendation. We are requesting
that FAA reconsider its response for recommendation 5, as detailed below.

OST partially concurred with recommendation 1, questioning the benefits of
performing additional reviews of domestic code share agreements beyond what is
statutorily required. However, as noted in our report, code share agreements have
become significantly more prevalent in recent years. In the last year alone, the
number of domestic code share agreements increased by 16 percent; yet, under the
current requirements, the Department would have only been required to review
approximately 11 out of all 51 (22 percent) active domestic code share
agreements, limiting its visibility into the growing field of code sharing. The
increased use of these agreements and their potential impact on the aviation
industry, particularly on smaller carriers that are financially reliant on them, is an
area that bears watching. OST’s planned actions to monitor industry developments
in the upcoming year is a positive step. However, we are requesting OST provide
additional information on how it plans to accomplish this endeavor, such as how it
will monitor the industry and who within the Department will be responsible for
this effort. As a result, we consider this recommendation resolved but open
pending additional information.

In response to recommendation 4, FAA partially concurred and stated that it
intends to require each Part 121 air carrier to implement a safety management
system (SMS), rather than publishing guidance on best practices for safety sharing
among air carriers as we recommended. An SMS is intended to provide a
comprehensive, process-oriented approach to managing safety. FAA further stated
that the SMS Final Rule is undergoing executive review and that the Agency will
provide an update on its progress toward issuing the rule by June 30, 2013.
Because a component of SMS emphasizes the formal communication of safety
                                                                                16


issues, FAA asserted that a tailored SMS program within each airline would be a
more effective method for meeting the intent of our recommendation. This action
satisfies the intent of our recommendation, and we consider it resolved but open
pending issuance of the final rule.

In response to recommendation 5, FAA partially concurred, noting that it already
monitors other leading indicators that may impact safety (including impacts from
mergers, takeovers, or changes in ownership and OST economic authority
requirements). We recognize that performance metrics, such as financial
incentives, are an important aspect of successful business relationships. However,
most regional air carriers are financially dependent on these code share
arrangements, warranting an additional precautionary step from FAA to review
any potential impacts of these metrics. Also, at a series of FAA-hosted Safety
Forums in 2009, industry representatives reported that while safety is their top
priority, economic factors can influence operational decisions that affect safety.
FAA’s review of the performance metrics included in code share agreements
would offer the added assurance that there are no unintended safety consequences.
Therefore, we are requesting that FAA reconsider its response to this
recommendation.

ACTIONS REQUIRED
We consider recommendations 1, 2, 3, and 4 resolved but open pending the
completion of planned actions. In accordance with DOT Order 8000.1C, we
request that OST provide additional clarifying information for recommendation 1,
FAA reconsider its position for recommendation 5, and both offices provide their
responses within 30 days of this report.

We appreciate the courtesies and cooperation of OST and FAA representatives
during this audit. If you have any questions concerning this report, please call me
at (202) 366-0500 or Tina Nysted, Program Director, at (404) 562-3770.

                                        #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                 17


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. We conducted this review between September 2010 and
October 2012 using the following methodology.

We interviewed OST representatives to obtain information on the number of code
share relationships in existence and the domestic code share approval process. We
also interviewed FAA Headquarters representatives (Flights Standards and Office
of Analysis and Information Staff) to obtain information on the Agency’s role in
the safety oversight of domestic code share relationships. We also met with OST
Office of the Assistant General Counsel for Aviation Enforcement and Proceeding
to determine how it monitors compliance with and investigates violations of the
DOT aviation economic, consumer protection, and civil rights laws, and how it
reviews aviation economic licensing matters.

We interviewed FAA Certificate Management Office (CMO) personnel with
designated oversight of respective air carriers engaged in code sharing agreements.
We also met with mainline and regional airline officials to determine how and at
what level within each organization code sharing agreements are developed,
implemented, sustained, and reviewed (including what factors or metrics are used
to determine suitability or performance).

To gain a better understanding of domestic code sharing relationships, we visited
five (out of 34 possible) air carriers and their respective CMOs for review. We
selected these carriers for review based on the differences in the carriers’ current
code share arrangements. For example, the code share relationships consisted of
both independent carriers as well as those operating as wholly owned subsidiaries.
We also visited FAA and OST offices that were directly or indirectly responsible
or knowledgeable of code sharing regulations and oversight.

In addition, we met with both representatives of airline and travel related industry
groups to identify their policies, guidance, or initiatives on code sharing
relationships and safety oversight programs, as well as initiatives on passenger
ticketing and code share disclosure.

We also performed Web site searches of domestic flights from various air carriers
to known code share destination and randomly contacted 16 different travel agent
offices via telephone with ticketing requests for these known code share itineraries


Exhibit A. Scope and Methodology
                                                                        18


to determine whether the travel agent was providing the required code share
disclosure.




Exhibit A. Scope and Methodology
                                                                      19


EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED

Federal Aviation Administration (FAA) Headquarters
Flight Standards National Field Office             Washington, DC
Flight Standards, Air Transportation Division      Washington, DC
Office of Accident Investigation and Prevention    Washington, DC
Office of Aircraft Certification Services          Washington, DC
Aviation Safety Information Analysis and
Sharing Division                                   Washington, DC
Office of Analysis and Information Staff           Washington, DC
International Programs and Policy Office           Washington, DC
FAA Liaison to Department of Defense               Washington, DC

FAA Certificate Management Offices (CMO)
Continental CMO                                    Houston, TX

FAA Flight Standards District Offices (FSDO)
Indianapolis FSDO                                  Indianapolis, IN

Office of the Secretary of Transportation (OST)
Office of the General Counsel                        Washington, DC
 (Office of Aviation Enforcement and Proceedings and
  Aviation Consumer Protection Division)             Washington, DC
Office of Aviation Analysis
 (Air Carrier Fitness Division and
 Competition and Policy Analysis Division)           Washington, DC
Office of International Aviation                     Washington, DC

Regional Air Carriers
Republic Airlines                                  Indianapolis, IN
Chautauqua Airlines                                Indianapolis, IN
Shuttle America                                    Indianapolis, IN
ExpressJet Airlines                                Houston, TX

Mainline Air Carriers
Continental Airlines                               Houston, TX
British Airways                                    London, England




Exhibit B. Organizations Visited or Contacted
                                                                   20


Consumer and Industry Groups
Consumers Union                                 Yonkers, NY
National Business Traveler’s Association        Alexandria, VA
FlyersRights.org                                Napa, CA
American Society of Travel Agents (ASTA)        Alexandria, VA
Consumer Travel Alliance                        Springfield, VA
Regional Airline Association                    Washington, DC
International Air Transport Association         Montreal, Canada

Conferences and Forums
National Transportation Safety Board (NTSB)
Code Share Symposium                            Washington, DC
American Society of Travel Agents (ASTA)
Legal Symposium                                 Washington, DC
Delta Connection Carrier (DCC) Training Forum   Atlanta, GA
Future of Aviation Advisory Committee (FAAC)    Washington, DC,
                                                Chicago, IL
                                                Atlanta, GA
                                                Denver, CO

Other Agencies
United States Department of Justice             Washington, DC




Exhibit B. Organizations Visited or Contacted
                                                               21


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                    Title

Tina Nysted                             Program Director

William Leary                           Project Manager

Galen Steele                            Senior Auditor

Jeannette McDonald                      Senior Analyst

Sara Gragg                              Senior Analyst

R. Andrew Farnsworth                    Analyst

Ruth Foyere                             Analyst

Andrea Nossaman                         Senior Writer/Editor

Audre Azuolas                           Writer/Editor

Seth Kaufman                            Senior Counsel

Petra Swartzlander                      Senior Statistician




Exhibit C. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                         22




                                        February 1, 2013




MEMORANDUM

TO:            Jeffrey B. Guzzetti
               Assistant Inspector General
                for Aviation

FROM:          Robert S. Rivkin
               General Counsel

SUBJECT:       OIG Draft Report on Domestic Airline Code-Sharing

Airline Code Sharing agreements are marketing arrangements between carriers that are intended
to provide more seamless and convenient services for airline passengers by facilitating the
coordination of scheduling and ticketing. The Department is in full compliance with statutory
requirements with regard to monitoring code-sharing agreements and has established a
regulatory framework to ensure that passengers are aware of the arrangements related to a given
airline ticket and the airline on which they will fly.

It is, therefore, quite surprising that OIG in opening its draft report describes various reviews
and tracking that the Department does not currently perform, none of which are required by
statute or regulation, and it implies a deficiency without justifying any need from either a safety
or economic perspective. The fact is these actions are not necessary or justifiable. Expanding
the listing, tracking, and reviewing of domestic code-sharing agreements would require
additional resources without any identified or demonstrable benefit.

With regard to aviation safety, following the February 12, 2009, crash of Colgan Air Flight
3407, Congress and the Federal Aviation Administration (FAA) took swift action to address the
need for improvements in pilot training, hiring and qualification programs, beginning with the
Agency's Call to Action on Airline Safely and Pilot Training and culminating in the passage of
the Airline Safety and FAA Extension Act (the Act). Effectively implementing the Act's
requirements for all commercial airline travel, not just for service provided by a regional
operator, has been key to improving safety by raising standards in pilot training and
performance, as well as advancing voluntary programs that yield critical safety information.




Appendix. Agency Comments
                                                                                                23
The FAA does not make a distinction between "major" and "'regional" carriers, as all of those
carriers meet the same standards, found in the regulations in Part 121 of Title 14 of the Code of
Federal Regulations. The FAA has an extensive certification and oversight process for all U.S.
airlines that hold an FAA certificate. Each independent code-sharing carrier holds an air carrier
certificate and is required to meet the appropriate regulatory standards. The FAA oversees each
of these air carriers under the same system of oversight. The FAA believes that all carriers
operating in accordance with the regulations meet an appropriate level of safety regardless of
whether or not they are in a code-sharing marketing alliance.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Determine how the Department could take a more active role in reviewing
domestic code-share agreements between mainline carriers and their regional partners (such as
developing a more formal process for identifying which domestic agreements to review) and
develop and implement an action plan for doing so.

Response: Partially Concur. OST’s current process and procedures are in full compliance with
statutory requirements. Its reviews focus on those code sharing agreements which offer some
potential for affecting competition. We note that the OIG report identified no specific instances
of code sharing agreements that should have received further scrutiny and bases this
recommendation on an assumption that OST may be missing competitive and economic
impacts. Additionally, OIG has not identified code-share operations themselves as a problem or
specified what exactly OST should look for when reviewing domestic code-share agreements.

Moreover, OST has limited authority to restrict domestic code-share agreements. OIG suggests
that OST is responsible for maintaining competitive market conditions, but that overstates our
authority. Congress has set forth the limited review OST is to conduct of domestic code-share
agreements. Under 49 U.S.C. § 41720, major U.S. carriers must notify OST of certain large-
scale domestic code-share agreements. The purpose is to give OST the opportunity to review
those agreements for competitive effects, e.g., United/Continental (2008). OST can take action
to block or limit a code-share agreement if the agreement violates 49 U.S.C. § 41712, by
demonstrating an unfair or deceptive practice or unfair method of competition. However, it is
generally not an unfair method of competition to engage in domestic code-share arrangements.
This is particularly the case with respect to agreements involving smaller carriers that are not
covered by 49 U.S.C. § 41720. OST is unlikely to find an unfair method of competition by
reviewing domestic code-share relationships because, as noted in the report, those agreements
tend to provide benefits to passengers, regional carriers, and mainline carriers. In terms of
passenger costs and services, at a minimum, code-share relationships are overall neutral, and
they often improve service and fares to underserved communities. Further evidence of the
absence of a problem is the fact that in the past 5 years OST's Aviation Enforcement Office has
received 55,181 consumer complaints but of those complaints, only 3 were about code-share
disclosure (or 0.0005%). Accordingly, it is unclear what benefit would accrue from the
additional review of domestic code-share agreements that OIG is recommending. However,
OST will monitor industry developments through the end of this year to determine whether any
issues arise that could potentially benefit from closer scrutiny and/or procedural modifications.
By January 31, 2014, OST will notify the OIG of whether any such issues have arisen, and
whether any further action is planned as a result.



Appendix. Agency Comments
                                                                                                     24
Recommendation 2: Assess whether consumer complaints should be attributed to a mainline
and/or operating carrier instead of the mainline code-share "brand" in the Air Travel Consumer
Report.

Response: Concur. The OIG report suggests that changing the way consumer complaints to
OST regarding code-share "brands" are attributed will increase the transparency of the data that
are published in OSTs Air Travel Consumer Report (ATCR). As stated in the OIG report.
OST's practice has been to attribute complaints to the carrier as perceived by the consumer,
which includes attributing a complaint to a mainline code-share "brand" if that is how the
consumer attributed it (e.g., United Express, Delta Connection). Carriers then have the
opportunity to correct any misperception by the consumer that results in a misattribution of a
complaint before the ATCR is published. The number of complaints actually attributed to a
mainline code-share "brand" is very small (77 out of 11,546 total complaints in 2011). By
comparison, 1,236 complaints were attributed to the corporate name of the code-sharing
regional carrier. We have never viewed this practice as problematic because the number of
complaints against code-share "brands"' is very small and does not detract from the usefulness
of the information provided by reporting the nature and number of complaints against the
carriers. Going forward, the Aviation Enforcement Office's Aviation Consumer Protection
Division will code complaints against either the mainline carrier or the operating carrier, as
appropriate, and not the code-share "brand." The ATCR will reflect the change starting with the
January 2013 report.

Recommendation 3: Increase sampling of travel agents for code-share disclosure to improve
compliance with current OST regulations.

Response: Concur. The OIG's report suggests that traditional travel agents are a significant
venue for air travel sales and accordingly should be more closely monitored for compliance
with code-share disclosure regulations. We are in the process of initiating a project to sample
(make test calls to) the top ten "brick and mortar" travel agencies by revenue, as well as a
number of carriers, to determine whether there are issues with disclosure of code-share
operations. The Aviation Enforcement Office intends to complete the test calls by June 30.
2013, and will take any enforcement action determined to be necessary. Enforcement action
against large entities generally has a deterrent effect across large segments of the industry.

It is also notable that about 2,000 traditional travel agencies sell tickets via the internet. Overall,
airlines report that both by revenue and number of tickets sold, over half of all ticket sales are
through the internet, either through the airline's own website or a travel agent website.
Additionally, online sales continue to increase at the expense of traditional travel agent sales
each year. Our numerous enforcement actions against entities with online operations encourage
compliance and increases online code-share disclosure.

Finally, it is important to clarify relevant facts regarding the OIG's statement that traditional
travel agent operations account for about $60 billion of total air travel sales. Based on
information provided by airlines and ticket agents, the Aviation Enforcement Office believes
that the bulk of the revenue generated by non-online travel agent sales results from travel
management company operations. The large dollar amount is misleading because a large
percentage of those sales are actually corporate travel purchases, generally made by or on behalf


Appendix. Agency Comments
                                                                                                  25
of sophisticated business travelers. Further, those purchases are often conducted through private
business-to-business transactions.

Recommendation 4: Publish best practices guidance for safety-sharing practices among Part
121 air carriers and their code-share partners.

Response: Partially Concur. The FAA sees value in many of the safety best practices adopted
by certain airlines, such as the Aviation Safety Action Program (ASAP) and Flight Operations
Quality Assurance (FOQA). In fact, since the Call to Action, participation in FAA's voluntary
programs is at an all-time high. Today, over 80% participate in at least one voluntary program
(Advanced Qualification Program [AQP], ASAP, FOQA, Line Operations Safety Audit
[LOSA]). As of September 2010, as documented in the 2011 Public Law 111-216 report to
Congress, 62 of 94 (66%) air carriers participated in ASAP and 33 of 94 (35%) participated in
FOQA. As of October 16, 2012, 64 of 84 participate in ASAP (78%) and 40 of 84 (48%)
participate in FOQA.

The FAA does not consider publishing best practices guidance for safety-sharing between code-
share partners to be the most effective way to further improve safety. Each air carrier must
address the safety risks it identifies in its own operation, which may not be the same as those
identified in another air carrier's operation. Instead, the FAA intends to require each Part 121 air
carrier to implement a safety management system (SMS). SMS is a comprehensive, process-
oriented approach to managing safety throughout an organization that includes an organization-
wide safety policy; formal methods for identifying hazards, controlling, and continually
assessing risk; and promotion of a safety culture. SMS stresses not only compliance with
technical standards but increased emphasis on the overall safety performance of the
organization. SMS's proactive emphasis on hazard identification and mitigation, and on
communication of safety issues, would provide certificate holders robust tools to improve
safety. The SMS Final Rule is presently in executive review and the FAA will provide an
update by June 30, 2013, on the status of the Final Rule

Recommendation 5: Review code-share agreement performance metrics, such as financial
incentives for on-time performance, to ensure they do not have unanticipated or adverse impacts
on safety.

Response: Partially Concur. The FAA recognizes that performance metrics are a necessary
element in commercial air carrier operations and that they may factor into operational risks that
must be considered in planning oversight. The FAA conducts risk-based surveillance based on
diverse and extensive information sources to evaluate an air carrier's ability to balance resources
and operational requirements. For example, in its oversight of Part 121 air carriers, the FAA
already monitors leading indicators that may impact safety, such as:
            •   Substantial change in air carrier management;
            •   Substantial turnover in personnel or reduction in force;
            •   Labor dispute;
            •   Rapid expansion or growth;
            •   Merger, takeover, or change in ownership;


Appendix. Agency Comments
                                                                                                    26

           •   Enforcement actions:

           •   Noncompliant attitude:

           •   Accidents/incidents/occurrences;
           •   Department of Defense reviews;
           •   Department of Transportation/Office of the Secretary of Transportation
               economic authority/insurance requirements;
           •   Change in fleet type;
           •   Substantial change in outsourcing;
           •   Financial distress;
           •   Substantial passenger or employee complaints; and
           •   Hotline complaints.

If the FAA identifies specific risks associated with these leading indicators, it takes action to
identify these risks and works with the air carrier to mitigate them. The FAA considers its
surveillance of business process risks to be sufficiently comprehensive to address the aspects
that would be touched by the recommended action. In light of this, the FAA does not see the
added utility of specifically reviewing contract agreements between air carriers. Accordingly,
the FAA requests that this recommendation be closed.




Appendix. Agency Comments
